No. 20-5778
IN THE SUPREME COURT OF THE UNITED STATES

DAVID DAVALOS, SR., PETITIONER
v.

UNITED STATES
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 3rd day of February 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 3, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5778
DAVALOS, DAVID, SR.
USA

NELSON STARBRANCH EBAUGH
NELSON S. EBAUGH, P.C.
3730 KIRBY DRIVE
STE. 1200
HOUSTON, TX 77098
713-752-0700

